CERTIFICATE OF SERVICE
NO. TBD
France.Com, Inc.,
Petitioner,
v.
The French Republic et al.,
Respondents.
__________
STATE OF MASSACHUSETTS )
COUNTY OF NORFOLK
) SS.:
Being duly sworn, I depose and say under penalty of perjury:
1. That I am over the age of 18 years and am not a party to this action. I am an employee of
the Supreme Court Press, the preparer of the document, with mailing address at 1089 Commonwealth
Avenue, Suite 283, Boston, MA 02215.
2. On the undersigned date, I served the parties in the above captioned matter with the
FRANCE.COM PETITION FOR WRIT OF CERTIORARI, by mailing three (3) true and correct copies of the
same by Fedex 2-Day, prepaid for delivery to the following addresses.
John P. O'Herron
Thompson Mcmullan PC
100 Shockoe Slip, 3rd Floor
Richmond, VA 23219
(804) 698-6253
joherron@t-mlaw.com
Counsel for The French Republic et al.

John M. Griem, Jr.
Carter Ledyard & Milburn LLP
2 Wall Street
New York, NY 10005
(212) 238-8659
griem@clm.com
Counsel for The French Republic et al.

Lucas DeDeus

September 16, 2021

SCP Tracking: Barlow-211 Church Street, SE-Cover White

